No.

3hi

Supreme Court of tfje Umteb States
■

PAUL M. CARRICK,
Petitioner,
v.
T. RICE et al.,
Respondents.

On Petition For A Writ Of Certiorari
To The Ninth Circuit Court Of Appeals

PETITION FOR WRIT OF CERTIORARI

Paul M. Carrick, pro per
110 Silverline Road
Los Gatos, CA 95033
(408) 848-1171
E-mail: pc66252@cruzio.com

r
i

QUESTIONS PRESENTED
1.

The Stated purpose of the Legislature in the
Homestead Act of 1862 is “To secure Homesteads
for actual settlers on the Public Domain.” It is a
condition of California’s Statehood to freely allow
settlers on the Public Domain but California is al­
lowing settlers to be charged for securing their
Homestead. But California State subsidiary Santa
Cruz County charges them a fee for their Home­
stead (see APPENDICES D and E).
The problem of States charging citizens for doing
business with the federal government is not new
Relying on U.S. Constitution Article 1 Section 8
“To make all Laws which shall be necessary and
proper.” The Supreme Court ruled in 1819 against
Maryland’s taxing a user of a U.S. Bank, (McCul­
loch v. Maryland, 17 U.S. 316). With the similarity
between U.S. Constitution Article 4 Section 3
clause 2, Congress “shall have Power to dispose of
and make all needful Rules and Regulations re­
specting the Territory or other Property belonging
to the United States” and Article 1 Section 8, the
Plaintiff seeks redress for fines and destruction of
his Homestead built in compliance with Home­
stead Certificate 4889 when he refused pay local
building regulators the way McCulloch refused to
pay taxes to the State of Maryland.

2.

Certificate 4889 appears as fulfillment of only the
first requirement of United States Constitution
Article 4 Section 3 Clause 2 to dispose of Territory
belonging to the United States. The other require­
ments include “to make all needful Rules and Reg­
ulations respecting the Territory.” As one of the

11

QUESTIONS PRESENTED - Continued
first successful settlers in this area in 191 years,
the Plaintiff suggests that a few “needful Rules
and Regulations respecting the Territory” need re­
affirmation. Besides (1) above, the U.S. Govern­
ment should continue to help Homesteaders as in
the past: Mail Delivery, Rural Electrification are
two.
3.

The speech of Cash Entry Act author, Senator Ed­
wards of New York which is recorded in the
Abridgment of the Debates of Congress on March
6, 1820 reveals advantages of homesteading: “I
will, at present, content myself with an effort,
merely, to shield the present settlers upon public
lands from merciless speculators whose cupidity
and avarice would unquestionably be tempted by
the improvements which those settlers have made
with the sweat of their brows, and to which they,
have been encouraged by the conduct of the gov­
ernment itself [to pre-empt squatters].” Combined
with land surveys, Cash Entry Land Patents
brought order to the Colonies’ lawless eastern
frontier and continue to this day. Do States
weaken these protections by allowing shortened
title Deeds which do not include the original Pa­
tent? Are States violating their enumerated Pow­
ers when they pass Marketable Title Acts? Article
1 Section 10 clause 6, Impairing Obligation of Con­
tract by states should not allow shortening Chain
of Title to leave a grantee without benefits and
protections and benefits of the Land Patent when
his place on the Chain of Title is beyond the cut­
off point specified by the State Law. California has
a Marketable Title Act which caused the Plaintiff

Ill

QUESTIONS PRESENTED - Continued
delay in Declaring his Land Patent per require­
ment in Lossing v. Shull, 173 S.W. 2d 1,1 Mo 342
(1943).
4.

After the Civil War, Amendment 14 sections 3 and
4 were not ready in time to deploy against slave
owners with the result that 4 million freed slaves
were deprived of land patents intended for them
on their owner’s property. Is it timely to use
sections 3 and 4 to stop offenses of over-activegovernment and corporate bureaucrats when they
fail to moderate their actions with section 2 due
process? (refer to APPENDIX E example)
Amendment 14 sect. 3 provides for permanent re­
moval of these malefactors from their positions of
authority and retirement benefits. Amendment 14
sect. 4 protects government from their abuse.

5.

Does a local County containing Homestead Certif­
icated land have any legal standing to make laws
requiring taxes or permits for duplicating the ben­
efits and obligations of homesteaded land specified
in the patent? Must the Supremacy Clause of the
United States Constitution, Article 6 section 2,
have to bear the burden of protecting homestead­
ers? The Legislature should write “needful Rules
and Regulations respecting the Territory” as al­
lowed by Article 4 section 3 cl. 2 and thus share
the burden of protecting homesteaders such as the
Plaintiff?

IV

QUESTIONS PRESENTED - Continued
6.

Can the County call a Homestead a nuisance? Is
California Civil Code 3482 stating that “Nothing
which is done or maintained under the express au­
thority of a statute can be deemed a nuisance” too
vague?
It didn’t keep the “homesteads” of Homestead Certificate 4889 (APPENDIX D) from being labeled a
nuisance and then demolished!

,

V

LIST OF PARTIES
All parties do not appear in the caption of the case
on the cover page. A list of all parties to the proceeding
in the court whose judgment is the subject of this peti­
tion is as follows:
Paul M. Carrick, an individual
Lucy H. Koh Judge, U.S. Northern California District
Court San Jose Division
TROTT, Judge United States Court of Appeals, Ninth
Circuit
TALLMAN, Judge United States Court of Appeals,
Ninth Circuit
CALLAHAN, Judge United States Court of Appeals,
Ninth Circuit
Attorney General of California
Karen Wadzinsky, U.S. Department of Justice
CORPORATE DISCLOSURE STATEMENT
The Petitioner, Paul M. Carrick, is an individual,
making this petition on behalf of no corporate entity.
STATEMENT OF RELATED CASES
OPPOSITION TO EX PARTE MOTION OF COUNTY
TO SEARCH 2ND TIME
CV 155817 NOTICE OF ADMINISTRATIVE APPEAL
Cal. Gov. Code 53069.4

VI

STATEMENT OF RELATED CASES - Continued
CV 158731 COMPLAINT FOR PERMANENT IN­
JUNCTION, CIVIL PENALTIES, ILLEGAL RENTS,
ATTORNEY’S FEES AND COSTS
CV 158757 VERIFIED AMENDED CROSS ACTION
FOR PETITION FOR WRIT OF MANDATE AND
COMPLAINT FOR DECLARATORY RELIEF
CV 158731 TRIAL, November 9,10, 2019
CV 158731 MOTION TO SET ASIDE DEFAULT
APPEAL COURT SIXTH DISTRICT H035505
MOTION FOR RECONSIDERATION, California Su­
preme Court
PETITION FOR A WRIT OF CERTIORARI IN SU­
PREME COURT OF THE UNITED STATES, No. 11533
12- CV-03852-LHK COMPLAINTS FOR: CANCELLA­
TION OF INSTRUMENT; FAILURE TO PERFORM
MANDATORY DUTY; INVERSE CONDEMNATION;
VIOLATION OF CIVIL RIGHTS, DECLARATORY
RELIEF; AND INJUNCTIVE RELIEF OF PRELIMI­
NARY AND PERMANENT INJUNCTION AND
CIVIL PENALTIES, COSTS, CIVIL CODE §52, 42
USC 1983; Homestead Act, 1862, and related Acts of
Congress U.S. DISTRICT COURT NORTHERN CALI­
FORNIA DIVISION
U.S. COURT OF APPEALS FOR THE NINTH CIR­
CUIT No. 13-16730
13- CV-01632-LHK 42 USCS 2709a U.S. DISTRICT
COURT NORTHERN CALIFORNIA DIVISION (QUIET
TITLE ACTION)

Vll

STATEMENT OF RELATED CASES - Continued
U.S. COURT OF APPEALS FOR THE NINTH CIR­
CUIT No. 13-17236
CV-158731 INDIRECT CONTEMPT
CV-158731 APPOINTMENT OF RECEIVER
CV-158731 MOTION FOR NONSUIT
CV-158731 MOTION TO ABATE AND ASSESS
COSTS
APPEAL SIXTH APPELLATE DISTRICT, No. H040261
APPEAL SIXTH APPELLATE DISTRICT, No. H045188
17-CV-03482-LHK, COMPLAINT, U.S. DISTRICT COURT
NORTHERN CALIFORNIA DIVISION
18-CV-00454-LHK, COMPLAINT, U.S. DISTRICT
COURT NORTHERN CALIFORNIA DIVISION
U.S. COURT OF APPEALS FOR THE NINTH CIR­
CUIT No. 18-16257
PETITION FOR A WRIT OF CERTIORARI IN SU­
PREME COURT OF THE UNITED STATES, No.__

<1

vrn
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED...........................

1

LIST OF PARTIES..........................................
CORPORATE DISCLOSURE STATEMENT

v

STATEMENT OF RELATED CASES............

V

TABLE OF CONTENTS..................................

Vlll

TABLE OF AUTHORITIES........................... .

X

PETITION FOR WRIT OF CERTIORARI....

1

OPINIONS BELOW.........................................
STATEMENT OF JURISDICTION...............

1

v

1

CONSTITUTIONAL PROVISIONS
INVOLVED............................. ......................

2

STATEMENT OF THE CASE.................. ......

4

REASONS FOR GRANTING THE PETITION

33

CONCLUSION..................................................

34

APPENDICES
APPENDIX A CIRCUIT COURT OPINION..... App. 1
APPENDIX B NOTICE OF ENTRY OF DIS­
TRICT COURT JUDGMENT and Text of
Judgment and Statement of Decision............ App. 4
APPENDIX C U.S. COURT OF APPEALS DIS­
TRICT 9 ORDER Denying Petition for Re­
App. 24
view
APPENDIX D U.S. HOMESTEAD CERTIFI­
App. 25
CATE 4889

r

IX

TABLE OF CONTENTS - Continued
Page
APPENDIX E U.S. OBSERVER V2-EDITION
App. 27
48
APPENDIX F Letter of Determination, Santa
App. 34
Cruz County Planning Dept.

X

TABLE OF AUTHORITIES
Page
Cases
Fuentes v. Shevin, 407 U.S. 67, 92 S.Ct. 1983......

10

Gobin v. Snohomish County Planning Depart­
ment, 304 F. 3d 909 (9th Cir. 2002)...................

23

Hagans v. Lavine, 415 U.S. 533..............................

12

Hooper et. al. v. Schiemer, 64 U.S. 235 (1859)...... 8,19
Knick v. Township of Scott, Pennsylvania et. al.,
No 17-647 Supreme Court...................................

35

Koontz v. St. John River Water Management,
568 U.S. 936 (2013)...............................................

22

Langdon v. Sherwood, 124 U.S. 74 (1887)...........

8,14

Lossing v. Shull, 173 S.W. 2d 1,1 Mo. 342 (1943)...

m

Mapp v. Ohio, (1961) 367 U.S. 643..........................

26

Morgan v. United States, 298 U.S. 468 (1936).....

20

Northern Pacific Railroad Co. v. Barden, 46 F.
592 (1891)...............................................................

7

Patel v. Penman, 103 F.3d 868 (9th Cir. 1996)....

20

People v. Minor, (2002), 96 Cal. App. 4th 29,116
Cal Rptr 2d 591......................................................

23

People v. Swink, 150 Cal.App.3d 1076, 198
Cal.Rptr. 29.................................................. .........

25

Samuel C. Johnson Trust et al. v. Bayfield
County, Wisconsin, 649 F.3d 799 (2011)...........

8

Sanford v. Sanford, 139 U.S. 642, 11 S.Ct. 666
(1891)............................... .......................................

7

r

XI

TABLE OF AUTHORITIES - Continued
Page
State v. Hewitt Land Co., 74 Wash. 573,134 P.47
(1913)..................................................................

34

Summa Corp. v. California ex rel State Lands
Commission, 80 L. Ed. 2d 237 (1984)..............

31

Vollstedt v. City of Stockton, 220 Cal. App. 3d
265(1990)...........................................................

20

Wisconsin R.R. Co. v. Forsythe, 159 U.S. 46
(1895)....................................................... ...........

6,7

Constitution
California Constitution Article 1 Section 1(a)

26

California Constitution ArticleT1 Section 6 .... 12,17,24
U.S. Constitution 4th Amendment................ 10,16, 26
2,16
U.S. Constitution 5th Amendment..................
U.S. Constitution 14th Amendment §2, §3, §4

3

U.S. Constitution Article 4 Section 4............ 16, 24, 25
U.S. Constitution Article 6 Section 2 ..............

22

Statutes and Rules
California Housing Law, Health and Safety
17910 et seq....................... .................................

17

U.S. Homestead Act of 1863.................................

19

California Civil Code 1066-1071.......... ...............

8

Xll

TABLE OF AUTHORITIES - Continued
Page
Other
“Thunder In the Mountains ,” Sharfstein.............

29

California Attorney General Opinion 79-601......

24

Miller & Starr, California Real Estate..................

8

California Real Property 2, “Remedies and Dam­
ages” ........................................................................

8

Supreme Court Practice, 9th Edition, Gressman

15

CEB Land Use Practice II, “Remedies for Tres­
pass and Damages”..............................................

8

“Real Estate Digest Miller & Starr, Vol 3, Nui­
sance .........................................................................

8

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Paul M. Carrick respectfully petitions
for a writ of certiorari to review the judgment of the
United States District Court Northern California Dis­
trict San Jose Division in this case.

OPINIONS BELOW
The United States Appeals Court Northern Cali­
fornia Ninth Circuit delivered its MEMORANDUM
Case No. 18-16257 regarding District Court No. 5:18cv-00454-LHK on January 15, 2019.
The United States District Court Northern Dis­
trict of California San Jose Division Case No. 18-CV00454-LHK.
ORDER GRANTING MOTION TO DISMISS;
GRANTING MOTION FOR SANCTIONS.

STATEMENT OF JURISDICTION
Carrick is filing this petition within 90 days after
the United States Court of Appeal Circuit 19 turned
down review en banc on April 23, 2019 which makes
this filing timely under Supreme Court Rule 13. Car­
rick invokes this courts substantive jurisdiction under
28 USCS 1254(1).

2
CONSTITUTIONAL PROVISIONS INVOLVED
This Petition pertains to property rights guaran­
teed by the following provisions of the Constitution
and also to Obligations of Government.
Article 1 Section 8 Clause 18 (excerpted): “To make
all Laws which shall be necessary and proper for carry­
ing into Execution the foregoing Powers, and all other
Powers vested by this Constitution in the Government
of the United States, or in any Department or Office
thereof.”
Article 1 Section 10 Clause 6 (excerpted): “No
State shall . . . pass any Bill of Attainder, ex post facto
Law, or Law impairing the Obligation of Contracts,..”
Article 4 Section 3 Clause 2: “The Congress shall
have Power to dispose of and make all needful Rules
and Regulations respecting the Territory or other
Property belonging to the United States;..”
Article 6 Section 2: “This Constitution, and the
Laws of the United States which shall be made in Pur­
suance thereof; and all Treaties made, or which shall
be made, under the Authority of the United States,
shall be the supreme Law of the Land; and the Judges
in every State shall be bound thereby, any Thing in the
Constitution or Laws of any State to the Contrary not­
withstanding.”
Fifth Article of Amendment (relevant portion ex­
cerpted): “No person shall ... be deprived of life, lib­
erty, or property, without due process of law; nor shall

3

private property be taken for public use, without just
compensation.”
Fourteenth Article of Amendment, Section 2 (rele­
vant portion excerpted): “[N]or shall any State deprive
any person of life, liberty, or property, without due pro­
cess of law; nor deny to any person within its jurisdic­
tion the equal protection of the laws.”
Fourteenth Article of Amendment, Section 3: “No
person shall be a Senator or Representative in Con­
gress, or elector of President and Vice-President, or
hold any office, civil or military, under the United
States, or under any State, who having previously
taken an oath as a member of Congress, or as an officer
of the United States, or as an executive or judicial of­
ficer of any State, to support the Constitution of the
United States, shall have engaged in insurrection or
rebellion against the same, or given aid or comfort to
the enemies thereof. But Congress may by vote of twothirds of each House, remove such disability.”
Fourteenth Article of Amendment, Section 4: “The
validity of the public debt of the United States, author­
ized by law, including debts incurred for payment of
pensions and bounties for services in suppressing in. surrection or rebellion, shall not be questioned. But
neither the United States nor any State shall assume
or pay any debt or obligation incurred in aid of insur­
rection or rebellion against the United States, or any

4
claim for loss or emancipation of any slave; but all such
debts, obligations and claims shall be held illegal and
void.”

STATEMENT OF THE CASE
Carrick, like the first entryman on Homestead
Certificate 4889 in 1893, Thomas Mayman, developed
water resources, roads, gardens, and orchards on bar­
ren land without electricity, telephone, or mail delivery,
or any government services. Carrick had to renew
Homestead Certificate 4889 for the second time be­
cause the original plat of 160 acres was now 100 due to
land sales. This involved having the land re-surveyed
and making a Declaration of Land Patent on the
same Homestead Certificate 4889 and advertising it
but with different boundaries in the local newspaper.
Thomas Mayman had to go through the same process
in 1893 in order to be granted Homestead Certificate
4889 per Land Claims Act of March 3,1851. This same
Act was quoted by Justice Rehnquist to settle the case
of Summa v. California in which California tried to ex­
tend its public trust servitude over lands patented to
the petitioner’s predecessors in implementation of the
Treaty of Guadalupe Hidalgo: “We hold that California
cannot at this late date assert its public trust easement
over petitioner’s property, when Petitioner’s predecessors-in-interest had their interest confirmed without
any mention of such an easement in proceedings taken
pursuant to the Act of 1851. The interest claimed by
California is one of such substantial magnitude that

5
(it) must have been presented in the patent proceed­
ings or be barred.” The County of Santa Cruz even to­
day still strives to exert a public trust interest to
force Carrick to obtain building permits as its County
Codes 1.12.070, 13.10.140(a), 13.10.279(a), (b), and
12.10.125(a), (q), and grading sections 16.20.210(a) and
16.22.160, whereby he “wrongfully and unlawfully con­
ducted grading and filling.” Homestead Certificate re­
quires Carrick to add intervening owners to the chain
of title so that he could legally enjoy the same rights
and privileges of possession on his 100 acre part of the
original 160 acres Homestead Certificate 4889 that
Thomas Mayman had “wrongfully and unlawfully.”
One doesn’t have to build a homestead “willfully and
without legal justification.” It can be done “willfully
and with legally” just do it naturally without confusing
legal imputations by just re-searching the County Re­
corder’s title files with index files.
The rewards of using rights and privileges are
quite substantial assuming no government shows up
on the chain of title. Now that Carrick had complete
legal control of the appurtenances he could build his
Homestead without getting Building Permits. There
were no building permits in Thomas Mayman’s day.
Carrick pays taxes to the local Counties and Mayman
also had to pay taxes. But he saves $1 million in illegal
county fees by doing so.
Over the years, Carrick built several houses,
planted 200 walnut and fig and apple trees, built a mile
of road, and fences to raise goats. He survived several
disasters: A major earthquake and two major fires

6
without any damage to buildings. Two of his houses
didn’t survive demolition of Santa Cruz County Plan­
ning Department. That organization derives substan­
tial revenue from permits to houses and decided
Carrick needed to be punished for not paying for their
permits, (see APPENDIX article highlighting Roy Tay­
lor as victim of the Planning Department in US Ob­
server Article Volume 2 Edition 48 by Joseph Snook).
Tenants lived in Carrick’s two houses and they were
thrown out by the County with all their belongings.
The Planning Department justified themselves by
claiming Homestead Certificates were now obsolete,
having been cancelled in 1976. Carrick found Public
Law 94-579 section 701, October 25, 1976 which assures that his Homestead Certificate 4889 is still as
good as ever. He also pointed to Homestead Certificate
4889 which implies he should build residences. That
order in a federal land patent preempted any interest
Santa Cruz County had in permitting housing by the
Supreme Law of the Land, U.S. Constitution Article 6
section 2, and the Chain of Title.
Carrick wants his obligation to build residences
under authority of Homestead Certificate 4889 af­
firmed by the Court. He also wants $7,000,000 for dam­
ages, ($1 million for each of the violently ejected
tenants).
The Legislature which is responsible for the
Homestead Act in 1862 intended for Land Patents to
interpret the Law, Wisconsin R.R. Co. v. Forsythe, 159
U.S. 46 (1895).

7
Since Homestead Certificates are grants, (see line
1, 12 Homestead Certificate 4889), Northern Pacific
Railroad Co. v. Barden, 46 F. 592, 617 (1891). Grants
are interpreted according to intentions of the Legisla­
ture, California Civil Code 1066, Wisconsin R.R. Co. v.
Forsythe, 159 U.S. 46 (1895).
This comports with Article 4 Section 3 Clause 2 of
the U.S. Constitution: “Congress shall have Power to
dispose of and make all needful Rules and Regulations
respecting the Territory or other Property belonging to
the United States.” Latent patents are their own
standard of review.
If there is a conflict between different parts of the
Patent, the part that comes first prevails California
Civil Code 1069.
There is no collateral estoppel against a land pa­
tent, Sanford v. Sanford, 139 U.S. 642, 11 S.Ct. 666,
(1891) 14. “It is true the determination of that depart­
ment [land department] in matters cognizable by it in
the alienation of lands under the laws of the United
States cannot be collaterally impeached, where its en­
forcement is sought. In ejectment the question always
is who has the legal title to the demanded premises,
not who ought have it. In such case the patent of the
government issued upon the land department is unas­
sailable.” A Government Patent is not an equity trans­
action. A Patent is a grant; it must be decided first.
A grant cannot be decided in a court of equity, but
only a Court of Law, “State statutes with less authori­
tative ownership of title than the patent cannot be

8
brought into federal court,” Langdon v. Sherwood, 124
U.S. 74 (1887) and Samuel C. Johnson Trust et al. v.
Bayfield County, Wisconsin, 649 F.3d 799 (2011). Land
Claims Act, March 3, 1851, 9 stat 683, gives would-be
grantees three years to respond. Hooper v. Scheimer,
64 U.S. 235 (1859), declares this rule is old as the law.
FRCP 1 and 2 give one type of action, civil action.
The Plaintiff had no power to control the Courts
listed in Statement of Related Cases to conform to
rules of interpretation of grants which has been by
Law, California Civil Code 1066-1071, not equity,
Hooper v. Scheimer, 64 U.S. 235, 16 L. Ed. 452 (1859).
No Legislature would tolerate such chaos. The District
Court (APPENDDC B) boldly claims to judge in equity,
“The Court recognizes that pro se filings are to be con­
strued liberally, including pro se motions as well as
complaints,” Bernhardt v. Los Angeles Cty., 339 F.3d
920, 925 (9th Cir. 2003).
No one has the ability to consistently interpret the
one hundred and fifty years of case law from hundreds
of court trials applied to 1,600,000 Homestead Certifi­
cates issued, each certificate being different except in
Law.
Constant avoidance of the subject of land patents
is apparent policy of British Legal Publishing Houses
to purge them out of-the Law. Try and find the phrase
‘land patent’ in California Real Estate, Miller & Starr;
California Real Estate, Mathew Bender; California
Real Property, CEB, CEB Land Use Practice I, and
CEB Land Use Practice II. These propaganda books ca­
ter to real estate business and derivatives markets.

9
The United States Court of Appeals for the Ninth Dis­
trict falls for equity deception, “We review de novo.”
Garity v. APWU Nat’l Labor Org., 828 F.3d 848 (9th Cir.
2016). Both District Federal and Ninth Circuit Courts
carefully avoid the legal name used for the Subject
being litigated, “Homestead Certificate 4889,” choosing
instead to rename the subject matter as “the Home­
stead Act.” “The Court does not agree that its prior
decisions misinterpreted the Homestead Act” 1.25
p9 of “ORDER GRANTING MOTION TO DISMISS;
GRANTING MOTION FOR SANCTIONS,” by Judge
Koh.
The massive inertia of the existing installed base
of land titles, case law, and real estate law treatises
overwhelm the wiles of foreign law publishing houses
so conveniently close to the capital of world finance and
having no loyalty to the United States nor interest in
supporting its Constitution. But only with the compli­
ance of the Judicial branch of Government, U.S. Con­
stitution Article 3.
California doctrine of res judicata depends on an
actual hearing to obtain accurate results. There was no
hearing in District Court Northern District San Jose
Division. Some give-and-take interaction is needed to
determine anything as subjective as “identity of
claims” and “privity between parties.” I accidentally
had opportunity to observe one hearing actually held
by Judge Koh. She was reprimanded by the pro se liti­
gant for a decision she made about Discovery without
his presence. I received no hearing from Judge Koh for
neither 12-CV-03852-LHK, nor 13-CV-01632-LHK, nor
17-CV-03482-LHK, nor 18-CV-00454-LHK. All were

10
res judicata based decisions and are void. Lucide v. Su­
perior Court, 51 Cal. 3d 335,272 Cal Rptr 767,795 P.2d
123 (1990) gives a more exact definition of claim exclu­
sion.
On none of these cases did I get any feed-back from
the citations which I gave. Refusing an evidentiary
hearing is contrary to California Administrative Pro­
cedure Act, (Gov. Code 11410.10.) Fourth Amendment
actual discovery is also required in Fuentes v. Shevin,
407 U.S. 67, 925 S.Ct. 1983.
Santa Cruz County Counsel acting on behalf of the
DEFENDANTS produced a huge volume of tran­
scripts. Nowhere in them was found any proof that
Santa Cruz County Codes found in the Notice of Viola­
tion were not bogus as the Plaintiff contended repeat­
edly. Nor could be found any plaintiff or statute to
justify their destruction of the Homestead appointed
by the Legislature. Through the RELATED CASES,
the Plaintiff contended that he built his homestead to
be in compliance with U.S. Homestead Certificate 4889
and that State and County regulations are pre-empted
by it.
White v. Pasadena, 617 F.3d 918, 926-27, attempts
to adjudicate res judicata in a situation without men­
tion of any grant. Mrs. White found out the hard way
that none existed. The MEMORANDUM is too narrow
in scope to handle traditional real estate law.
The 1863 Legislature made Homestead Certifi­
cates to be their own standard of review and they have
worked quite successfully for 157 years. No Court has

11
any authority to interpret them differently. That power
exists only with the United States Legislature.
The Plaintiff looks only to the law in his COM­
PLAINT filed in United States District Court and ex­
pects the value of his suffering and time loss to total at
least $7,000,000.2
The State of California has allowed the County of
Santa Cruz to operate an unconstitutional Planning
Department threatening owners of Homesteads to pay
tribute and incarcerating and destroying Homesteads
of owners which do not pay. In Writ No. 11-533 this
Plaintiff enclosed a copy of his letter to the State At­
torney General informing him of this situation.

1.

JURISDICTION

No Court has fully ruled on jurisdiction of this
case despite numerous separate requests to do so. The
Supreme Court of the United States is mandated to
among other things, rule on jurisdiction.
By California Court of Civil Procedures 430.80(a),
no court can have jurisdiction because there was no
statement of objections, Answer, and no demurrer and
the Plaintiff has consistently refused jurisdiction of
2 County Ordinance limits expenditures to those items which
will not cause County to be sued. For that reason, they are not
listed among the DEFENDANTS. District Court Judge is liable
for damages to amount which she is responsible for by not allow­
ing Discovery per FRCP 26.

12
any and all courts. The Plaintiff never demurred to the
County and his Answer was Struck because he would
not perform Discovery on Appurtenances of Home­
stead Certificate 4889, (Rental Agreements, over which
the County had no jurisdiction).
“Where no cognizable crime is charged, the court
lacks fundamental subject matter jurisdiction to ren­
der a judgment of conviction, i.e. it is powerless in such
circumstances to inquire into the facts, to apply the
law, and to declare the punishment for an offense.”
Robinson v. State, 728 A.2d 698, 353 Md. 683 (1999).
Santa Cruz County claims lack of building permits is
a crime but ignore their own crime of exceeding their
jurisdiction in California Constitution Art. 11 §6 by ig­
noring State Laws and making up their own and
whimsically use them against the Public including the
Plaintiff. “To be abated, a house must be substandard,”
Health and Welfare 17920.3, H&S 17922(g). The list of
41 possible substandard attributes does not include
“lack of building permit.” Santa Cruz just makes up
“Code Section 12.10.125(a) Construction w/o Permits”
which obviously cannot be in State Housing Law. Even
if it could conjure up laws, Homestead Certificate 4889
is immune to them by the Land Claims Act of May 3,
1851.
Santa Cruz County has no jurisdiction because of
lack of Administrative Review. Hagans v. Lavine, 415
U.S. 533 (1974) states that an Administrative Meeting
must contain a defense of the Santa Cruz County’s
jurisdiction over Homestead Certificate 4889, upon

13
which the Plaintiff has his defense from their Building
Permits.
Lawyer Andee Liesee requested FOIA-state for
Protest Meeting Proceedings and none was found.
Plaintiff has complete control of appurtenances
according to the Chain of Title and Santa Cruz County
which does not appear on the Chain of Title, has none,
Hooper v. Scheimer, if the County has no authority how
can it sell building permits?
County Counsel Tamyra Rice was asked by the
Plaintiff to prove County’s jurisdiction for CV 158731
and remained silent, (see REPORTER’S TRANSCRIPT
OF PROCEEDINGS, November 9, p.13 1. 13 and RE­
PORTER’S TRANSCRIPT OF PROCEEDINGS, No­
vember 6, pg 3-5). Silence implies fraud, U.S. v. Tweel.
In Connally v. General Construction Co., silence means
acquiescence.
California Superior Court Case CV 158731 is a
frivolous and capricious attempt by the County of
Santa Cruz to garner revenue, (see “Santa Cruz
County Code Enforcement,” Joseph Snook, US Ob­
server Vol 2 Edition 48), and Santa Cruz County has
no jurisdiction to try the case of Building Permit on
Homesteaded land. It was declared by the Plaintiff
both in writing and in Court to be without jurisdiction,
(PROTEST MEETING Exhibits A and C).
Jurisdiction of the Demolition of the Plaintiff’s
Homestead 4889 on June 1, 2, 2017 changed all this
and the Plaintiff opened a separate matter from the

14
above State Superior Court case, including criminal
acts, Trespass, Conversion, Harassment, Conspiracy,
Fraud, Treason, and Civil Rights in CV17-03482-LHK.
The United States Justice Department declined to
prosecute this case, (Karen Wadzinsky), and so, the
Plaintiff was forced to prosecute it himself. When the
County of Santa Cruz refused to make a valid AN­
SWER (see Rule 7) and instead JOINED to this Com­
plaint a MOTION TO DISMISS. Because the Answer
was invalid not correctly identify the Law, Homestead
Certificate 4889, the PLAINTIFF refused to REPLY
the MOTION TO DISMISS but only their Answer.
Homestead Certificate 4889 is a grant and grants must
be answered before equitable proceedings can com­
mence. The Plaintiff had advised District Court Judge
Koh of this Supreme Court rule, previously in 12-CV03852-LHK, Langdon v. Sherwood, 124 U.S. 74 (1887),
and she ignored it. CV 17-03482-LHK was DIS­
MISSED. No Discovery was begun and the Statute of
Limitation was near.
Since the Statute of Limitations commenced on
the June 1, 2017, demolition, the PLAINTIFF opened
CV 18-0454-JSC in UNITED STATES FEDERAL
COURT NORTHERN DISTRICT on January 19,2018.
Without conferring with the PLAINTIFF, jurisdiction
was removed back to DISTRICT COURT, SAN JOSE
DIVISION. Again the DEFENDANT failed to make a
valid ANSWER before DISMISSAL and the case was
DISMISSED by Koh. Naming of the remaining DE­
FENDANTS was still incomplete. This could be done
informally or part of Rule 26 Discovery.

15
The jurisdiction of this Court is invoked under 28
U.S.C. Section 1254(1).
“While the Supreme Court’s acceptance
of certified questions from the federal courts
of appeals under 28 U.S.C. 1254(1) has de­
creased sharply in recent decades, the Supreme
Court has shown increasing willingness to
make use of a different certification device:
certification to the highest court of a state of
questions of state law as to which there is sub­
stantial doubt. When the Supreme Court cer­
tifies a question to a state court, it abstains
from an immediate decision on the merits and
invokes the procedure, prescribed by state
statute or rule, that permits the state court to
entertain and decide the certified question
and thus provide an authoritative explication
of local law.”3
Supreme Court Practice, 9th Edition, page 604.
In this case, one question to be certified to the Cal­
ifornia Supreme Court is “Does Health and Safety
17912 state that Housing Law has subject matter ju­
risdiction over existing buildings which are not permit­
ted by local building authorities?” Subject matter
jurisdiction presumed by Appeals Court is not Hous­
ing, despite that Housing was repeatedly asserted in
lower court.

3 California Rules of Court 8.548 Decision on request of a
court of another jurisdiction.

16
2.

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

Due Process defined by Appeals Board in Califor­
nia Health and Safety Code 17920.5, 17920.6 and
17925, Uniform Housing Code, Chapter 12, Appeal,
and Chapter 13, Procedures for Conduct of Hearing
Appeals.
FIFTH AMENDMENT TO THE UNITED STATES
CONSTITUTION: California Health and Safety
17980.10 details how and if a dwelling can be deemed
a nuisance and abated according the due process de­
fined by the Uniform Housing Code.
CONSTITUTION OF THE UNITED STATES AR­
TICLE 4 SECTION 4
FOURTH AMENDMENT TO THE UNITED
STATES CONSTITUTION: California Health and
Safety Code 17912 applies State Housing Law to all
existing buildings and structures. Health and Safety
17920.3 describes conditions which make buildings
“substandard.” Housing Code Chapter 2 provides for
enforcing standards of safety, cleanliness, and sanita­
tion when the Building Official has good cause to be­
lieve substandard conditions exist without infringing
on fourth amendment rights. Fourth Amendment vio­
lated by Santa Cruz County’s “as-built” permits on oc­
cupied residences.
UNITED STATES CONSTITUTION Article 1 Sec­
tion 8, Powers Granted Legislature, paragraph 3,
should not be interpreted so as to force landowners to

17
obtain building permits the way it has been used to im­
pose Zoning.
UNITED STATES CONSTITUTION Article 1 Sec­
tion 9, Powers Denied Legislature, paragraph 3: En­
cumbrance cannot be placed on landowners by
accusation for Building Code violation, (this is also a
Fifth Amendment taking).

3.

SUMMARY STATEMENT OF THE CASE

Webster’s Dictionary defines jurisdiction as the
power and authority and right to interpret and apply
the law. The only cognizable law in this case is Home­
stead Certificate 4889. Application of that law gives
the Plaintiff the right to possession of the appurte­
nances and charge those who destroyed his houses
with that crime. The laws conjured up by the County
are incompatible with State Law and the General Law
Cpunty of Santa Cruz has no authority change them
under the California Constitution Article 11 sect 6.
California State requires the Plaintiff’s houses to
have any one of listed “condition to an extent that en­
dangers the life, limb, health, property, safety, or wel­
fare of the public or the occupants thereof” before
they can be “abated” as was attempted June 1 and 2,
2017, Health and Safety 17980.10, 17958.2, 17958.7,
17958,9, 17920(k), 17920.3, 17920.5, 17920.6, 1791012, 18449.27, 17959.4-5, 17960.1 must be followed.
None were. Petition for Writ of Certiorari 11-533 de­
tailed Due Process violations of the County.

18
When the County demurred to the Plaintiff’s
cross-complaint, the Plaintiffs lawyer proved the
County’s charges as frivolous and ‘void for vagueness’
but lodged no demurrer on behalf of the Plaintiff. The
individual whose Complaint provoked the actions by
County was tried in Santa Cruz County CV 153544
and despite testimony by County Planning Depart­
ment personnel, was unable to prove any violations
and the Court Dismissed the case. He had been unable
to pay rent. The County then charged the Plaintiff with
‘victimless crimes’ which are not recognized by the
State of California nor in the County’s power to invent.
The DEFENDANTS the Plaintiff’s UNITED
STATES NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION Complaint Case No. 18-CV00454-LHK as DEFENDANTS demonstrated an ani­
mus against Homestead Certificate 4889 which posted
on the Premises gate. They demolished his houses to
punish him for depriving them of their source of in­
come, (see APPENDIX E). They must have taken their
lessons from A1 Capone who kept his family in Santa
Cruz while he was in Alcatraz Prison.

4.

DETAILED STATEMENT OF THE CASE

The subject of the following case is 20 acres of re­
mote, difficult-to-develop unclaimed Federal Land. The
land was in Department of California in Mexico before
the Treaty of Guadalupe Hidalgo. Legislature of the
United States of America in the years 1820 and 1863

19
passed Acts pursuant to United States Constitution
Article d Section 3 Sect. 2. The United States Land
Commission appointed it for disposal. The Surveyor
General partitioned the land into Sections and Town­
ships beginning in 1851 and finishing in 1883. Town­
ship 10 Section 2 Range 1 E (of Mt. Diablo) contained
36 potential lots, 21 being under Homestead Act of
1863 and most of the rest under Cash Entry Act of
1820. Thomas Mayman and his brother Charles se­
lected two 160 acre lots side-by-side in 1893, Home­
stead Act Certificates 4889 and 4964. Carrick’s
reduced area 4889 straddles Summit Road with 80
acres to the north in Santa Clara County and 20 acres
south in Santa Cruz County. 4889 is presently shared
between five owners including the Plaintiff. Carrick’s
part of 4889 was possessed by a succession of owners,
all except for Mayman and Carrick were speculators.
Surveyor Walter Hoskins marked off the boundaries
the portion which Carrick had purchased and regis­
tered the survey with Santa Cruz Department of Pub­
lic Works in September, 1978. In 1982, Surveyor Larry
Palm used Hoskins’ survey when he finished surveying
Carrick’s 100 acres in 1984. As required by the Land
Claims Act, the survey and chain of title was published
in 1989 in the Santa Cruz Sentinel newspaper4. “No
equitable title can be set up in ejectment in opposition
to legal title.” Hooper v. Scheimer, 64 U.S. 235, (1859).
Having a legal title meant nothing to the Planning
4 For 2 weeks, not 2 years required by the Land Claims Act
in any newspaper of mass circulation. After 40 years no one com­
plained.

20
Department, or perhaps they just didn’t know what
one was. The PROTEST MEETING DETERMINA­
TION, APPENDIX F proves both deficiencies in the
Planning Department’s knowledge of the Law. A
printed copy of Homestead Certificate 4889 as in AP­
PEND B£ D was included in Plaintiff’s Exhibit C used
in the PROTEST MEETING, APPENDIX F with state­
ment of purpose, “To Secure Homesteads to actual
Settlers on the Public Domain.” The Plaintiff’s Intro­
duction in his Exhibit A concludes with, “It seems like
there is no legal basis to your request to ‘conduct site
inspection’ or require permits of houses built on the
property. [Dated] March 15, 2006.”
The “DETERMINATION” was written by someone
who was not even at the meeting. Neither was the
Planning Director, Tom Burns, in violation of due pro­
cess “he who decides must hear.” Vollstedt v. City of
Stockton, 220 Cal. App. 3d 265, 276 (1990); Morgan v.
United States, 298 U.S. 468 (1936).
The NOTICE OF VIOLATION only warned of
[County] Action No. 2 “Referral to Administrative
Hearing” as a possible outcome of the PROTEST
MEETING for the Plaintiff. In Patel v. Penman, 103
F.3d 868, 879 (9th Cir. 1996), the court explained the
Notices of Violation due process violation “those no­
tices did not apprise [the owner] of his right to be heard
to contest the permanent closure of the motel; at the
most, they notified [him] of his right to protest the
City’s determination that code violations existed at the
motel.” Id. At 879. There was no post-deprivation pro­
cedure. County Code §10.01.080 explicitly states that

21
recordation of a red tag is “final and not subject to fur­
ther appeal.” Neither was the Plaintiff warned of Ac­
tion No 7) “Abatement as a public nuisance.”
There was no mention of “Homestead Certificate
4889” certified by the U.S. Department of Interior
which the County Counsel apparently regarded as to­
ken out of a box of Cracker Jacks. Together with the
survey of 1978 and Chain of Title, together with
preemption by Article 6 §2 United States Constitution,
and the above Due Process violations, invalidates the
value of the entire PROTEST MEETING.
Following the presumption of Santa Cruz County
Counsel which defends the Planning Department per­
sonnel in who were observed destroying two homes on
the Plaintiff’s homestead, the United States District
Court Northern District San Jose Division, and United
States Ninth Circuit Court of Appeals presume that
the title is equitable. Homestead Certificate 4889 can­
not be judged except by Legislature. Despite being pre­
sented with a Department of Interior certified copy of
Homestead Certificate 4889, they refuse to try this
case at Law as required but only as an Equity, (Rules
1 and 2 of Rules of Civil Procedure).

22
DEFENDANTS DESTROY
PLAINTIFF’S HOMESTEAD
Refuses to pay $7,000,000 for damages, fines,
and harassment
COUNTY CLAIMS IT NEEDS NO
JURISDICTION TO ENFORCE LAWS
DESIGNED TO RAISE REVENUE
State Law states that a Court has no jurisdiction
to try a Complaint filed in Court against a defendant
without his making an objection to the Complaint to
or demurring against the Complaint. The PLAINTIFF
challenged the Jurisdiction of the County over Home­
stead 4889 before, during, and after the County’s
Complaint against it. Neither the State Courts, nor the
Federal Courts, nor the Protest Meeting answered the
challenge to jurisdiction of the County’s fund-raising
program using the Planning Department. The Plain­
tiff raised the Supreme Court decision of Koontz v.
St. John River Water Management, 568 U.S. 936
(2013).
Must all Land Patents legislated into existence
under United States Article 6, Section 2, be adjudi­
cated according to Law rather than as Equities? No
party has proved that this Subject Land of the Plaintiff
has debt to buy permit. Therefore it is not an Equity.
The US Supreme Court so decided in 1893 in Sanford
v. Sanford, 139 U.S. 642, 11 S.Ct. 666 (1891), and also
Langdon v. Sherwood, 124 U.S. 74 (1887). In the un­
likely event that a mistake was made in the original
definition of the Land Patent, Quiet Title Act, 28 USCS
2409a is available to correct it. [having to raise to the

23
Supreme Court case every question of land use is im­
possibly diffictilt and expensive when it usually turns
out in favor of the patentee]. This present case is one
such. Another such case is Gobin v. Snohomish County
Planning Department, 304 F. 3d 909 (9th Cir. 2002).
CLAIMS OBEYING FEDERAL LAW IS A CRIME
United States Homestead Certificate 4889 charges
Plaintiff who is enabled to create a Homestead of own­
ership with creating a public nuisance for that Home­
stead, as defined in County Code that any violation of
a County Code is a nuisance.
RESTORE CONSTITUTIONAL LAW
FOR TRANSFERRING PROPERTY
Property Titles are almost universally color of law
in the United States. Very few properties possess upto-date surveys and complete chain of title to the
United States. These properties are bait for frauds and
charlatans and currently end up as fodder for the in­
ternational derivatives market.
BUILDING CODE OR NONE AT ALL?
The Housing Law’s Appeals Board’s constitutional
necessity should be re-iterated for cities only. Lack of
building permits in rural areas in California and pun­
ishable on an ascending scale by Government. C 25132
and Penal Code 19, People v. Minor, 96 Cal. App. 4th 29
(2002).

24
Santa Cruz County refuses most of the California
Building Code, including Appeals Boards even though
its status as a General Law County prevents that, Cal­
ifornia Const. Art. 11 §6. In Santa Cruz County each
appointment with the Appeals Board is a meeting with
the County Supervisors and costs $1000 each time.
Since the Supervisors are all lawyers and don’t know
much about building, expensive specialists must be
hired which make costs even higher—defeating the
original reason for having volunteer professionals as
Board Members with the Building Official making ap­
pointments, Health and Safety 18949. The Trial Court
skipped the presentation of finding of the California
Attorney General in AG Opinion 79-601 that Appeals
Board/California Building Standards Commission is
necessary for the constitutional functioning of the
Housing Law and Building Law. The Judge omitted the
legal argument for California Code Regulations 108.4
and the unconstitutionality, (by US Constitution Art. 4
Section 4), of issuing Building Permits without Ap­
peals, Board/California Building Standards Commis­
sion5. The Appeals Court is a court of error and did
not make a pronouncement of this issue when it was
brought up. The California Supreme Court declined
to hear the case. Since the Constitutional question
concerns both U.S. and California Constitution, it is
appropriate that the U.S. Supreme Court address issue
of inclusion of legislative contributions from private
entities to regulations for Housing and Building
5 Trial Reporters Transcript 330, 340 and Opening Appeal
pages 53 and 55.

25
Standards. Legislative delegation by government is at
issue. The DECLARATION OF INDEPENDENCE
faulted the king’s government “For suspending our
own Legislatures, and declaring themselves invested
with Power to legislate for us in all cases whatsoever.”
Separation of Powers, US Const. Art. 4 Section 4 has
proven effective the king’s government for almost 250
years will not repeat the error of Santa Cruz County in
not informing prospective appellants, including the
Plaintiff, of the due process available, (People v. Swink,
150 Cal.App.3d 1076,198 Cal. Rptr. 29.)
INCREASE SUPPLY OF LOW COST HOUSING
The Supreme Court’s deciding the necessity of
Constitutionality of California’s Housing Law will in­
crease the supply of quality low-cost housing. Santa
Cruz County’s Appeals Board failed because the Build­
ing Official did not provide appointments. Government
regulation needs support by private sources to be effec­
tive. The mechanism for combining government au­
thority with private resilience has been proven fruitful
by past Supreme Court decisions. Affirmation of Cali­
fornia’s Housing Law supported by California Building
Standards Commission and local Appeals Boards over
prescriptive local codes will enhance prosperity in con­
stitutionally-guaranteed freedoms.
AVOID DIVISION AMONG COURTS
Excluding unpermitted housing will provoke divi­
sions in court decisions by opening legal conflicts. The

26
Housing Law itself does not oppose unpermitted
housing. If Counties are allowed to over-reach their
authority under Article 5 section 1 of the California
Constitution by defining unpermitted housing as code
violations the Inalienable Right to have, maintain,
and protect private property defined in California
Constitution Article 1 section 1(a) and support for land
patents will be compromised.
4TH AMENDMENT ENFORCEMENT REQUIRES
APPEALS BOARD EXPERTS
Strengthen mutual relationship between the Ap­
peals Board and Housing Law jurisdiction to establish
4th Amendment Constitutional protection as per
Mapp v. Ohio (1961) 367 U.S. 643. Without a local ap­
peals board, even basic matter as jurisdiction of the
Housing Code cannot be determined.
“The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or af­
firmation, and particularly describing the
place to be searched, and the persons or things
to be seized.”
Article 1 section 1(a) of the California provides
reasonable expectation that no unreasonable and pre­
scriptive law is required to live on and maintain and
improve one’s land. Without proof of Housing Code ju­
risdiction to draw a line defining what is police power,
fourth, fifth, and fourteenth amendment protection, is

27

in jeopardy. Their motive for this is pecuniary not re­
lated to the health and safety standards enacted by the
State Legislature and updated as necessary by the
California Building Standard Commission and Ap­
peals Boards. This controversy has made its way past
the California State Appeals Board Sixth District
which has refused to rule on the jurisdiction of Health
and Safety standards contained in the Housing Law.6
Distinguishing an “existing structure” from one which
is under construction for the purposes of California
Health and Safety 17912 requires the expertise of an
Appeals Board to tell whether maintenance and occu­
pancy operations predominate or whether Building is
in progress, (see also California Code of Regulations
tit. 24 section 3403.2). Building must commence prior
to the effective date of the regulations but mainte­
nance and change of occupancy can go on either before
or after the effective date of such rules.
7.

After a June 1, 2, 2019 incident when my
own Homestead was destroyed I wrote to the

6 See April 21 Opinion page 22: “Carrick’s code violations
pertained primarily to lack of permits. Carrick fails to explain
how the County Code at issue with respect to his property pertain
to occupancy standards and thus Breseno [v. Santa Ana City] is
not helpful to him.” If the Appeals Court had accepted that Car­
rick’s residences were under the jurisdiction of the Housing Code,
then lack of permits is relevant. Building Permits are neither an
occupancy standard, H&S 18917, nor cause of being substand­
ard, H/S 17920.3). See also Chapter 14 Uniform Housing Code
section 1401.3. Inequality of County Codes cited and standards of
occupancy are exhaustive depicted in Appendix 1 of Opening
Brief. “SUBSTANDARD BUILDING DO NOT OCCUPY” is the
required verbiage under the Housing Law. Only if the Appeals
Court rejected the Housing Law could they not accept this fact.

28
Attorney General of the United States inform­
ing him and he assigned Karen Wadzinsky to
the situation. I received no help. The District
Court and Ninth Circuit claims Homestead
Certificate 4889 is inferior to State Law and
the Planning Department was right to destroy
my Homestead. The Department of Justice
should affirm power of Homestead Certificate
4889.
The Legislature could grant homesteads to In­
dians who became citizens either as individu­
als or as entire tribes. This later purpose
would work to entice Indians who had not
made treaties yet to do so. The greatest pur­
pose was to grant homesteads to freed slaves.
The fact that the Homestead Act was cre­
ated in the midst of the Civil War between the
States should hint about the Legislatures’
real ultimate goal being to give away power to
American Citizens to govern. What actually
transpired was 1.6 million homesteaders be­
ing given 10% of the total area of the United
States, 270 million acres. Both the Abridg­
ment of the Debates of Congress and Case
Law explicitly state this purpose: Wineman v.
Gastrell, 54 Fed 819, 2 U.S. App. 581. That
amount of acreage would greatly increase if
4,000,000 freed slaves had been granted
homesteads made up of their former masters’
estates. That increase area homesteaded by
1,000,000 acres. That was the plan of Abra­
ham Lincoln and his chosen administrator
General Otis Howard. It was not the plan of
Lincoln’s successor, Andrew Johnson. Although

29
Johnson had been a leading advocate of home­
steads when in the Senate, his plan for former
slaves was as sharecroppers on their former
masters’ plantations and not as independent
homesteaders. “Thunder In the Mountains”
Sharfstein.
Was it too soon to interpret this power
into actions to protect America not only
against foreign adversaries were also needed
against adversaries within? The 14th Amend­
ment Sections 3 and 4 were not done in time
to seize the slaveholders’ plantations and
transfer their ownership to the former slaves.
Some uneducated persons were granted
Homesteads, (see Debell, Sept 29,1915, 227 F.
760, 8th Circuit).
Homesteads are not an abstract legal sta­
tus but a state of being encompassing ability
to own, divide, and sell property; cultivate and
enrich land; engage in commerce; make con­
tracts; and raise families. Homesteading was
an ideal medium to turn 4,000,000 slaves into
4,000,000 productive citizens. The Plaintiff
was able to avail himself of substantive and
legal Homestead Certificate 4889 require­
ments to produce a working homestead with­
out prior preparation.
PRESERVE REPRESENTATIVE
GOVERNMENT

FORM

OF

The goal “In order to form a more perfect union”
propounded by the DECLARATION OF INDE­
PENDENCE has moved men’s hearts and minds for

30
centuries afterward through problems and circum­
stances never envisioned by its originators. Surely del­
egating legislation at a time when bad legislation was
one evil which the Declaration of Independence pur­
ported to correct by revolution. It is still controversial
in these later times when something as mundane as
building a house requires special legislation. Teaching
good government practices while propagating exper­
tise to build improves both. Expertise must be put in a
decision-making role to be effective and build respon­
sibility. Such expertise is not usually found among
those who make government a career.
THIRTEEN YEARS OF CONTINUAL HARASS­
MENT AND TRESPASS
March 25, 2006, I responded to letter from a
County Planning Department Code Enforcement Of­
ficer, Jacob Rodriguez, requesting that I allow him to
inspect my property. My immediate answer is in ex­
hibit A ‘March 15, 2006 Letter,’ stating that my United
States Homestead Certificate 4889 and Santa Cruz
County Codes 12.10.125(a) and (q), and 1.12.070(a-n)
claim authority to maintain and construct structures
for habitation is never addressed by the Protest Meet­
ing Letter of Determination. Not only is the County’s
presumption false but Homestead Certificate 4889 pre­
empts the County Building Codes. Plaintiff refused to
do Discovery on his Rental Agreements the County
struck his Answer because they were his private prop­
erty separate from his buildings and unrelated to the
County’s case they would have to separate case. The
Plaintiff having made no demurrer to the County’s

31
case, and contesting the County’s personal jurisdiction
and subject-matter jurisdiction, left them with a void
case, California Code of Civil Procedure 430.80(a).
United States Homestead Certificate 4889 is a fed­
eral statute passed by the Legislature and Signed by
the President and not Homestead Act, or land patent,
or ‘some kind of sovereign.’ Lacking the proper name
of the law, it is unlikely for these courts to comprehend
the central issue of authority, The Supreme Law of the
Land. Authority over “residences for actual settlers”
or housing.
The offense is more complicated than having or
not having shelter. The offense emanates not from the
Constitution, but the Law of Nations and each Nation.
The crime of treason in high places is likely.
RESULTING INJURIES TO PLAINTIFF
Elements of Tort
A prior action was commenced by or at the direc­
tion of the defendant(s) and was pursued to legal ter­
mination in the plaintiff’s favor. Santa Cruz County
Code Inspection Officer demanded to inspect Plain­
tiff’s property. Plaintiff rebuffed the County’s demand
by quoting U.S. Constitution Art 6 sec 2, statutes
(Homestead Certificate 4889) and case law, (Summa
v. California, 104 Sup. Ct. 1751, (1984)). The County
was unable to make a meaningful reply.
- The prior action was brought without probable
cause. Using obsolete County Codes, (Jane Tay­
lor, California Building Standards Commission,

32
letter to Attorney Joe Ritchey, 3-2-06), Santa
Cruz County Counsel Tamyra Rice commenced
illegal building code action CV 158731 against
Plaintiff, on November 28, 2007, having already
been warned that Plaintiff’s United States
Homestead Certificate 4889 protected against
such collateral action, (Notice of [updated] Land
Patent published in Santa Cruz Sentinel, March
7, 1999). Throughout the proceedings, evidence
was falsified, notice of court actions with-held,
FOIA results delayed until after needed as evi­
dence, claims of jurisdiction falsified, (city ver­
sus county). Santa Cruz County Grand Jury
Final Recommendations favored expenditures
that increased comforts of city-dwellers, (a four
lane highway in city widened while 80% of
county roads still substandard), and opposed
those that made county areas more usable,
(County connecter road Hwy 35 improvement
approved by Board of Supervisors in 1893 was
still improved dirt after 126 years).
- These prior actions were initiated with malice,
(two of Plaintiff’s Homestead buildings assessed
at $8000 on an unimproved county road without
electricity, mail delivery, trash pick-up, road de­
molished while the Plaintiff’s property was
liened with costs of demolition of $32,515.01 by
the Santa Cruz County Treasurer/Tax Collector.
- The Plaintiff suffered an injury. The dollar
amount liened is less than the replacement
value and does not include lost rent.
The Plaintiff also suffered costs of litigating. First,
Barri Betancourt of Tree Law was paid $14,000 to

33

oppose ex parte action by the Planning Department
based on Homestead Certificate 4889 and then open an
Administrative suit against the County pursuant to
Government Code 53069.4 protection. Barri’s commute
time was excessive and the Santa Cruz County Plan­
ning Department and County Counsel lied continually,
so she asked me to find another lawyer. The Law firm
of Remy, Thomas, Moose, and Manley provided a law­
yer who was useful but knew nothing about Land Pa­
tent Law. The Plaintiff had to start handling the
County’s case himself, after paying Remy, Thomas
$66,000.

REASONS FOR GRANTING THE PETITION
Restore Real Estate Transfer prescribed by Law
Reduce Homelessness
Protect those who rely on their Patent from oppression
by States.
The proposals of this PETITION mends the patchwork Patent Law only slightly. It is the responsibility
of the Legislature to write a Bill to make Patent more
accessible and easy to use as well as address outstand­
ing problems like Wild Deeds, uniform treatment of
handling contingent conditions in loans, and encour­
age home ownership.

34
QUESTION 3, if not addressed, will allow perpet­
uation of “merciless speculators”.
QUESTIONS 2 and 5 could be combined.

CONCLUSION
Land Patents are the initial reaction of American
Colonists to the grievances described by Thomas Jef­
ferson in the Declaration of Independence and are
what the United States Constitution was written to
support and protect. The well-documented conspiracy
to eliminate Land Patent from Land Law of the United
States is the cornerstone of investment market attack
on the American Economy. United States government,
State v. Hewitt Land Co., 74 Wash. 573, 134 P. 47
(1913). Foreclosures are the bottom of the food chain
with derivatives at the top in terms of payback for
work by lenders. The first law passed to support Homeowners Bill of Rights of 2013 was restoration of the law
separating Note from the Deed. The Land Patent is the
higher form of Title than a Deed. Real Estate Law Book
publishers have erased the phrase Land Patent’ from
their lexicon. With 1.6 million of them issued, land pa­
tents are hard to get rid of. Land Patents are still found
California Law, (Evid. C. 523). Derivative speculators
get the highest mark-up by separating the Deed from
the Note (and even divide the Note). Foundation of eco­
nomic stability is home-owners because everyone
needs a place to live and to keep it they meet their
mortgage payment. That is also why the Building

35

Permit Extortion racket pays off so well for Santa Cruz
County Planning Department and other counties.
What these fraudsters didn’t count on was the stability
of Homestead Certificate 4889 and other patents. 4889
was issued 127 years ago and copies of legally certified
copies are maintained by the United States Depart­
ment of Interior and readily available. The Certificate
4889 even protects against any need for building per­
mits by assigning responsibility to the patentee.
The Acts of Legislature could be realized and the
President could then begin to form the government en­
visioned by the Founders. Performance of Land Patent
Law would better support Treaties and allow for peace
between Nations and Peoples of the World envisioned
by the Law of Nations, Wineman v. Gastrell, 54 Fed
819, 2 U.S. App. 581, 1893. The Government of Santa
Cruz County destroyed two houses belonging to the
Plaintiff. The costs and penalties and time lost are a
5th Amendment takings which is payable at this time,
Knick v. Township of Scott, Pennsylvania, et al., No 17647 Supreme Court.
The Court should grant the Petition and Issue the
Writ of Certiorari.
Respectively submitted,
Paul M. Carrick
110 Silverline Road
Los Gatos, California 95033
Date: July 24, 2019

